Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




DATA AND SAFETY MONITORING
  BOARDS IN NIH CLINICAL
 TRIALS: MEETING GUIDANCE,
  BUT FACING SOME ISSUES




                    Daniel R. Levinson
                     Inspector General

                       June 2013
                     OEI-12-11-00070
EXECUTIVE SUMMARY: DATA AND SAFETY MONITORING BOARDS IN
NIH CLINICAL TRIALS: MEETING GUIDANCE, BUT FACING SOME ISSUES
OEI-12-11-00070

WHY WE DID THIS STUDY

A Data and Safety Monitoring Board (DSMB) is a committee of experts responsible for
reviewing clinical trial data on an ongoing basis to ensure the safety of study subjects and
validity and integrity of the data. Members should be independent, with no vested
interest in a specific treatment. A DSMB reviews evidence of adverse events and interim
treatment outcomes to recommend whether trials should be continued, altered, or
terminated. To do so, a DSMB must have access to “unmasked” data during the course
of a trial, meaning that members know which subjects are in which treatment group. This
study seeks to determine the extent to which DSMBs met National Institutes of Health
(NIH) guidance, identify any challenges to DSMB effectiveness, and contribute to the
Office of Inspector General’s body of work concerning clinical trials and human subject
protections.

HOW WE DID THIS STUDY

We reviewed the extent to which DSMBs met NIH guidance and identified any
challenges to their effectiveness. According to general NIH guidance, DSMBs (which
are composed of relevant experts) should meet regularly to review interim trial data and
make recommendations concerning the trials’ continuation or termination. Our findings
are based on the population of 44 NIH-funded Phase III multi-site clinical trials
completed in 2009 and 2010 that entailed potential risk. We reviewed NIH guidance and
DSMB policies; documentation regarding DSMB meetings, including membership
rosters and recommendations; surveyed DSMB members and principal investigators; and
interviewed NIH staff and DSMB stakeholders.

WHAT WE FOUND

DSMBs met general NIH guidance. They met regularly, and 91 percent of meetings
resulted in a recommendation to NIH. DSMB members represented multiple disciplines
and had significant experience. Most DSMB members identified themselves as either
clinicians or as clinical trial experts. However, DSMBs face some issues. NIH
participation in closed DSMB meetings diminishes the appearance of independence; not
all Institutes and Centers (IC) policies reference DSMB access to unmasked data; and
NIH faces challenges in recruiting and training DSMB members.

WHAT WE RECOMMEND

NIH should (1) direct ICs to articulate the circumstances in which IC staff should
participate in DSMB meetings, (2) direct ICs to explicitly reference DSMB access to
unmasked data in their DSMB policies, and (3) identify ways to recruit and train new
DSMB members. NIH concurred with all three recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................4 

Findings........................................................................................................7 

           DSMBs are meeting NIH guidance in their roles as trial
           monitors ...........................................................................................7 

           DSMBs face some issues that may affect their ability to fulfill
           their roles .........................................................................................9 

Conclusion and Recommendations ............................................................12 

           Agency Comments and Office of Inspector General Response.....13 

Appendix: Agency Comments ..................................................................14 

Acknowledgments......................................................................................17 

                   OBJECTIVES
                   1.	 To determine the extent to which Data and Safety Monitoring Boards
                       (DSMBs) met National Institutes of Health (NIH) guidance in carrying
                       out their responsibilities to monitor trials.
                   2.	 To identify any challenges to DSMB effectiveness.

                   BACKGROUND
                   Clinical trials test experimental drugs, devices, and treatments to
                   determine whether they are safe and effective. DSMBs are advisory
                   committees of experts responsible for reviewing ongoing trial data. They
                   play a unique role in ensuring the safety of human subjects enrolled in
                   trials. They also play a critical role in ensuring the merit of these trials.1
                   To carry out these functions, DSMBs must have direct access to
                   “unmasked” data during the course of a trial, meaning that members know
                   which subjects are in which treatment group—something the researchers
                   and subjects themselves do not generally know. NIH requires DSMBs to
                   monitor all Phase III multi-site trials that entail potential risk.2
                   DSMBs serve as independent bodies of experts that have no vested
                   interest in a specific treatment. DSMBs approach trial monitoring with
                   uncertainty regarding whether the intervention or drug being tested will be
                   superior to existing treatments or at all effective until proven otherwise.3
                   DSMBs review evidence of study-related adverse events and interim
                   treatment outcomes to recommend whether trials should be continued,
                   altered, or terminated. This study seeks to explain the important role that
                   DSMBs play in NIH-sponsored research involving human subjects, and to
                   contribute to the Office of Inspector General’s (OIG) significant body of
                   work concerning clinical trials and human subject protections.
                   NIH
                   NIH is the largest source of funding for medical research in the world; it
                   had a budget of $30.9 billion in fiscal year (FY) 2012.4 NIH comprises
                   the Office of the Director and 27 Institutes and Centers (IC), each with a
                   specific research agenda.




                   1
                     NIH, Policy for Data and Safety Monitoring, 1998. Accessed at http://grants.nih.gov

                   on January 15, 2013.

                   2
                     Ibid. 

                   3
                     This approach is known as practicing “clinical equipoise.”

                   4
                     NIH, Operating Plan-Budget Mechanism. Accessed at 

                   http://officeofbudget.od.nih.gov on December 18, 2012. 


Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                          1
                   Clinical Trials
                   A clinical trial is a controlled study to determine whether an experimental
                   drug, treatment, or device is safe and effective. Drugs, treatments, and
                   devices generally undergo three phases of clinical trials. Phase III trials
                   typically involve several hundred to several thousand human subjects.
                   These trials are used to confirm the effectiveness of a treatment, monitor
                   its side effects, compare it to commonly used treatments, and collect
                   information on safe usage. Phase III clinical trials also typically involve
                   multiple trial sites where human subjects receive an experimental
                   intervention.5 All multi-site clinical trials involving interventions that
                   pose potential risk to the participants require a DSMB.6

                   Grantees, principal investigators, and DSMBs are involved in Phase III
                   NIH clinical trials. A grantee is an organization or individual awarded a
                   grant or cooperative agreement by NIH. The grantee is accountable for
                   the use of funds and for the performance of the clinical trial. Grantees
                   typically include academic centers or pharmaceutical and device
                   companies. To direct the trial, a grantee designates a principal investigator
                   who is accountable to the grantee and NIH for the trial’s proper conduct.7
                   A DSMB is a group of individuals with pertinent expertise that regularly
                   reviews accumulating data from one or more ongoing clinical trials. A
                   DSMB functions as a monitor of the trial to ensure the safety of study
                   subjects and validity and integrity of the data. Independence is critical for
                   DSMBs. Without independence, their recommendations could be biased,
                   and the ability of the DSMB to fulfill its mission would be compromised.
                   DSMBs make recommendations to NIH, Institutional Review Boards
                   (IRBs), and/or the principal investigator regarding continuing, altering,
                   suspending, or terminating a trial. 8, 9 For instance, a DSMB may
                   recommend terminating a trial if the results are so overwhelmingly
                   positive or negative that the ultimate conclusion can be readily predicted
                   or if the trial appears futile (e.g., no difference emerged between the
                   treatment groups).
                   DSMBs meet in open and closed sessions. They generally first meet in an
                   open session attended by voting DSMB members, IC staff, principal


                   5
                     NIH, Glossary. Accessed at http://grants.nih.gov on January 15, 2013.
                   6
                     NIH, Policy for Data and Safety Monitoring, 1998. Accessed at http://grants.nih.gov on 

                   January 15, 2013.

                   7
                     NIH, Glossary. Accessed at http://grants.nih.gov on January 15, 2013. 

                   8
                     An IRB is a committee set up to ensure the protection of the rights and welfare of 

                   human subjects. Each clinical trial must be covered by an IRB. IRBs are typically
                   site-specific. 

                   9
                     NIH, Policy for Data and Safety Monitoring, 1998. Accessed at http://grants.nih.gov on 

                   January 15, 2013.


Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                           2
                   investigators, and industry representatives.10 During an open session,
                   principal investigators or their designee(s) typically provide an update on
                   trial progress and answer questions. Following the open session, the
                   DSMB convenes a closed session to review emerging trial data (including
                   potentially unmasked data). Closed sessions are attended by voting
                   DSMB members and sometimes by study statisticians and other IC staff.11
                   These closed meetings also include a review and discussions of adverse
                   events, participant risk versus benefits, and trial sites.
                   NIH DSMBs
                   Potential grantees who apply for funding must submit a clinical trial
                   protocol, which is a detailed study plan that includes the objectives,
                   methodology, and statistical plan for the trial. The protocol must include a
                   data and safety monitoring plan (DSM plan). For multi-site Phase III
                   clinical trials that involve risk to participants, the plan must involve a
                   DSMB.12

                   NIH allows ICs flexibility in implementing the DSMB guidance for data
                   and safety monitoring. Each IC should have its own DSMB policy.
                   However, NIH does specify responsibilities related to DSMB composition,
                   reporting, and conflict of interest.13
                   Composition. DSMBs should consist of experts in all scientific disciplines
                   needed to interpret the trial data and ensure patient safety. They may
                   include clinical trial experts, biostatisticians, bioethicists, and clinicians
                   knowledgeable about the disease and treatment under study.14 ICs are
                   responsible for ensuring that DSMB members have the appropriate
                   expertise required for each specific trial.15
                   Reporting Recommendations. A DSMB must make recommendations to
                   the IC after each meeting concerning the continuation or conclusion of the
                   trial. The IC should review all recommendations and ensure that they are
                   addressed and shared with the principal investigator and the IRB.16
                   Conflict of Interest. To preserve the group’s independence, individual
                   DSMB members should not be associated with the trial, meaning that they
                   should have no financial or professional interests in the trial. ICs should

                   10
                      NIH, Policy for Data and Safety Monitoring, 1998. Open sessions can be public or

                   private, as decided by the IC. Accessed at http://grants.nih.gov on January 15, 2013. 

                   11
                      Ibid. 

                   12
                      Ibid. 

                   13
                      NIH, Glossary. Accessed at http://grants.nih.gov on January 15, 2013. 

                   14
                      NIH, Policy for Data and Safety Monitoring, 1998. Accessed at http://grants.nih.gov 

                   on January 15, 2013.

                   15
                      Ibid. 

                   16
                      Ibid. 


Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                           3
                   evaluate whether the potential DSMB members have conflicts of interest
                   with or financial stakes in the research outcomes; when conflicts exist, ICs
                   must have policies for managing them in a reasonable manner.17 Although
                   it is not explicitly required, ICs may require that DSMB members disclose
                   a conflict or sign a document maintaining that they are free of any conflict
                   of interest.
                   Related Reports
                   In 1998, OIG issued a series of reports on IRBs.18 This report is a follow-
                   up on the recommendations from that series regarding the use of DSMBs.
                   OIG recommended that NIH and the Food and Drug Administration
                   (FDA) define the types of trials for which DSMBs would be required and
                   set forth requirements for the composition of DSMBs.19 In response, NIH
                   required DSMBs for all Phase III multi-site trials and published guidance
                   about their composition.20 FDA released nonbinding recommendations
                   regarding the use of DSMBs. Like NIH, FDA defines a DSMB as a group
                   of individuals with pertinent experience that reviews accumulating data
                   from one or more ongoing clinical trials. FDA allows trial sponsors to
                   determine when a DSMB may be useful for study monitoring.21

                   METHODOLOGY
                   This study reviewed the extent to which DSMBs for NIH-funded Phase III
                   multi-site clinical trials met NIH guidance. The findings are based on data
                   collected on the population of Phase III multi-site clinical trials completed
                   in 2009 and 2010 that entailed potential risk. NIH identified a total of 44
                   trials funded by 10 ICs that met these criteria.
                   We used several data sources to answer our study objectives: (1) NIH
                   guidance and IC DSMB policies; (2) DSM plans; (3) documentation
                   regarding DSMB meetings, including membership rosters and
                   recommendations; (4) a survey of DSMB members, (5) a survey of
                   principal investigators; (6) structured interviews with staff from the
                   10 ICs; and (7) interviews with DSMB stakeholders. These sources are
                   described below.


                   17
                      Ibid. 

                   18
                      OIG, Institutional Review Boards: Their Role in Approved Research, OEI-01-97-
                   00190, June 1998; Institutional Review Boards: Promising Approaches, OEI-01-97-
                   00191, June 1998; Institutional Review Boards: The Emergence of Independent Boards, 

                   OEI-01-97-00193, June 1998; Institutional Review Boards: A Time for Reform, OEI-01-
                   97-00193, June 1998. 

                   19
                      OIG, Institutional Review Boards: A Time for Reform, OEI-01-97-00193, June 1998. 

                   20
                      NIH, Policy for Data and Safety Monitoring, 1998. Accessed at http://grants.nih.gov 

                   on January 15, 2013.

                   21
                      FDA, Guidance for Clinical Trial Sponsors: Establishment and Operation of Clinical

                   Trial Monitoring Committees, 2006. Accessed at www.fda.gov on March 7, 2013. 


Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                          4
                   NIH Guidance and IC Policies
                   We reviewed NIH’s 1998 Policy for Data and Safety Monitoring to assess
                   NIH guidance on DSMBs. Because each IC has flexibility in
                   implementing this guidance as appropriate for its specific clinical research
                   activities, we also reviewed the 10 ICs’ DSMB policies.
                   DSM Plans
                   We collected DSM plans from ICs for each of the 44 clinical trials. From
                   these we gathered information about the DSMBs’ composition and the
                   frequency of their meetings.
                   Documentation Regarding DSMB Meetings
                   We received documentation regarding closed DSMB meetings for 39 of
                   the 44 trials in our population (a total of 399 meetings).22 For each closed
                   meeting, we received meeting attendance records, a summary of the
                   meeting (including any minutes), and DSMB recommendations.
                   Survey of DSMB Members
                   In April 2012, we surveyed DSMB members about their experiences on
                   DSMBs and whether they had enough information to make
                   recommendations. We identified 322 DSMB members through the DSMB
                   membership rosters provided by NIH for our population of 44 studies. Of
                   the 322, we ultimately surveyed 251.23 We made up to three attempts to
                   elicit responses and ultimately received 180, 72-percent response rate.
                   Survey of Principal Investigators
                   In November 2012, we surveyed principal investigators about their
                   perceptions regarding the representation of scientific disciplines on
                   DSMBs and their overall experiences with DSMBs. NIH provided us a
                   list of all 91 principal investigators associated with our population of
                   44 trials (some trials had multiple investigators). Of the 91, we ultimately
                   surveyed 69 principal investigators.24 We made up to three attempts to
                   elicit responses and ultimately received 30, 43-percent response rate.
                   Given this response rate, our results may not reflect the opinions of all the
                   principal investigators associated with the 44 clinical trials in our
                   population.




                   22
                      One IC accounted for the five trials for which we did not receive meeting minutes.
                   This IC stated that it does not receive DSMB meeting documentation. 

                   23
                      Thirty-five email addresses were no longer active; 21 DSMB members were listed

                   more than once; 5 DSMB members were deceased; and 3 individuals stated that they did 

                   not serve on a DSMB and were incorrectly identified.

                   24
                      Seventeen email addresses were no longer active; four individuals confirmed they were 

                   not the principal investigator for the trial; and one principal investigator was deceased. 


Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                             5
                   Structured Interviews With NIH Staff
                   We interviewed staff from the 10 ICs associated with 2009 and 2010 trials.
                   We asked IC staff about their oversight of DSMBs, including any training
                   provided to members and the recruitment process. We also asked about
                   the IC staff’s review of DSM plans and DSMB recommendations.
                   Interviews With Stakeholders
                   We interviewed 11 experts with DSMB experience either as DSMB
                   members (e.g., biostatistician, clinician) or a principal investigator. These
                   experts were not directly associated with any trials in our population and
                   were identified through research and individual recommendations.
                   Conversations focused on the independence of DSMBs, DSMB members’
                   access to unmasked data, and recruitment and training of DSMB members.
                   Limitations
                   Given our response rates and the possibility that nonresponding DSMB
                   members or principal investigators may have responded differently to our
                   questions than responders, our results may not reflect the opinions of all
                   DSMB members or principal investigators associated with the 44 clinical
                   trials in our population. Also, given that responses were anonymous, we
                   are unable to determine the specific trials with which respondents are
                   associated.
                   Standards
                   This study was conducted in accordance with the Quality Standards for
                   Inspection and Evaluation issued by the Council of the Inspectors General
                   on Integrity and Efficiency.




Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                6
                   FINDINGS
                   DSMBs are meeting NIH guidance in their roles as
                   trial monitors
                   According to NIH guidance, DSMBs should meet regularly to review
                   interim trial data and make recommendations to ICs concerning the
                   continuation or conclusion of the trial. DSMBs should be composed of
                   experts in all scientific disciplines needed to interpret the data and ensure
                   patient safety. For NIH trials completed in 2009 and 2010, we found that
                   DSMBs met this general guidance.
                   DSMBs met regularly and made recommendations about the
                   continuation of the trials
                   Clinical trials span many years; therefore the DSMBs must meet over
                   many years. The 39 trials for which we had meeting records met for
                   4.5 years on average, ranging from 21 months to 8.5 years. Almost all
                   members reported that their DSMBs met frequently enough to fulfill their
                   mission. Most DSMBs met semiannually (45 percent) or annually (42
                   percent). The remainder met quarterly.
                   DSMBs’ initial meetings were usually in person, but over half of the
                   subsequent 360 meetings were by teleconference. IC staff reported that
                   meeting via teleconference reduced the burdens of time and travel.
                   At the conclusion of closed sessions, DSMB members vote on
                   recommendations regarding trial continuation. Making such
                   recommendations is a primary responsibility of the DSMB. The great
                   majority of meetings (91 percent, 365 of 399) resulted in
                   recommendations.25 According to meeting records we reviewed, the
                   DSMBs recommended stopping seven trials. Four of these
                   recommendations were based on findings that the treatments under study
                   were ineffective; the other three were based on findings that the trials
                   could not accrue enough subjects in the allotted time to yield useful
                   results. All seven trials were subsequently terminated.
                   The great majority of DSMB recommendations were to continue the
                   studies with no changes; 20 percent of the recommendations were to
                   continue the studies with changes. Recommended changes included
                   pretrial changes to the protocol, altering the informed consent form or
                   process, changing enrollment, or changing treatment.




                   25
                      Those that did not were often the final meetings at the close of the trial or a specific
                   meeting solely on enrollment updates or a protocol modification.

Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                                 7
                   DSMB members represented multiple disciplines and have
                   significant experience with DSMBs
                   The effectiveness of a DSMB depends in large part on the strengths of its
                   members. Members volunteer their expertise and time to ensure trial
                   integrity and patient safety. According to IC staff and DSMB
                   stakeholders, DSMB members are experienced professionals respected in
                   their scientific fields.
                   The DSM plans and DSMB policies we reviewed generally called for
                   members from the disciplines necessary to carry out the task of a DSMB.
                   On the basis of our review of the DSMB rosters, DSMBs met this general
                   requirement. DSMBs were composed of clinicians, clinical trial experts,
                   biostatisticians, bioethicists, and patient advocates. On average, each
                   DSMB had seven members. Membership ranged from 4 to 11 per trial.
                   More than two-thirds of DSMB members identified themselves as either
                   clinicians knowledgeable about the disease and/or treatment relevant to
                   the trial or as clinical trial experts. The vast majority of DSMB members
                   and principal investigators reported that these disciplines were adequately
                   represented on DSMBs. DSMB members and principal investigators also
                   reported that biostatisticians were adequately represented.
                   Bioethicists may be warranted on some DSMBs to provide bioethical
                   perspectives on the progress of trials. However, one-third of DSMB
                   members and principal investigators reported that bioethicists were
                   underrepresented. Bioethicists were the least represented discipline of
                   those members we surveyed (15 of 180). Staff from two ICs said that
                   bioethicists are especially difficult to recruit to DSMBs given their limited
                   experience with clinical trials.
                   Seventy-five percent of DSMB members reported that they had served on
                   more than one DSMB. On average, they reported serving on five DSMBs
                   throughout their careers. Twenty-six of thirty principal investigators
                   surveyed reported that the DSMB members had enough experience to
                   fulfill their roles.
                   Standing DSMBs may account for the large percentage of individuals
                   serving on multiple DSMBs. A standing DSMB is one that meets for a
                   number of different trials within the same IC in which the same disease or
                   treatment is being studied. Eight of the ten ICs use standing DSMBs for
                   some or all of their trials. Staff stated that the main advantage to using
                   standing DSMBs is having a ready-made, experienced pool of members
                   familiar with the roles and responsibilities of a DSMB.




Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                8
                   DSMBs face some issues that may affect their ability
                   to fulfill their roles
                   DSMBs met NIH’s general guidance by having relevant experts who met
                   regularly to offer recommendations to NIH. To fulfill their roles, however,
                   DSMBs must also maintain their independence, be assured access to
                   unmasked data, and have a qualified pool of experts from which to recruit
                   DSMB members. DSMBs face issues in all three of these areas.
                   IC participation in closed DSMB meetings diminishes the
                   appearance of independence
                   According to NIH, ideally, individuals are in no way associated with the
                   trials they monitor.26 Association with a trial could take many forms. For
                   instance, DSMB members could have conflicts of interest, meaning
                   personal or financial stakes in the outcome of a trial. However, we found
                   that conflict-of-interest paperwork was generally submitted to ICs, as
                   required.
                   Additionally, IC staff have interests in the trials because the ICs fund the
                   trials. Staff from 9 of the 10 ICs attended closed DSMB meetings at
                   which interim data were reviewed. DSMBs generate recommendations
                   regarding trial continuation from the interim data review.
                   We did not assess whether any DSMB recommendations were subject to
                   bias. However, the extent to which IC staff participated in closed
                   meetings diminishes the appearance of independence. Half (15 of 30) of
                   principal investigators responded that IC staff should not participate in
                   closed DSMB meetings. Six of the eleven expert stakeholders expressed
                   concern about the extent to which ICs participate in closed DSMB
                   meetings. One stakeholder said that such participation hindered
                   independence. Another referred to IC participation as a “delicate balance”
                   between the IC obtaining information and the DSMB maintaining
                   independence.
                   A few DSMB members and principal investigators did not agree that their
                   DSMBs maintained their independence from NIH. Specifically, 14 (of
                   180) DSMB members and 3 (of 30) principal investigators did not believe
                   that DSMBs maintained their independence.
                   On the other hand, IC staff, most DSMB members, and most principal
                   investigators agreed that DSMBs maintained their independence from
                   NIH. In fact, one DSMB member noted that the IC’s participation in the
                   DSMB was important to help the DSMB make informed decisions; a

                   26
                      NIH, Policy for Data and Safety Monitoring, 1998. Accessed at http://grants.nih.gov
                   on January 15, 2013.

Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                          9
                   stakeholder noted that the DSMBs benefit from the closer relationship the
                   ICs have with the principal investigators. Others also cited the importance
                   of having an IC staff attend closed meetings to serve as an executive
                   secretary, thereby facilitating note taking, scheduling, and other related
                   functions.
                   IC staff involvement in DSMB meetings is addressed in each IC’s DSMB
                   policy. However, the policies did not always clearly restrict participation
                   in closed meetings or define the role of IC staff in closed meetings. For
                   example, one IC policy appears to include no restrictions, stating that
                   “during closed sessions of the DSMB meetings only DSMB members and
                   IC program staff may attend.” Another policy states that “closed sessions
                   will be restricted to voting and ad hoc members … and IC staff as
                   appropriate.” In a third example, the policy is clearer, restricting IC staff
                   participation in closed session (when unmasked data would be discussed)
                   to the IC executive secretary and statistician.
                   Not all IC policies reference DSMB access to unmasked data
                   DSMBs are typically the only clinical trial oversight entity with direct
                   access to unmasked data during the course of the trial, meaning that
                   members know who is in the control group versus the treatment group.
                   Many experts and almost all principal investigators agreed that to fulfill
                   their roles, DSMB members must have access to these data if they request
                   them.27
                   Only 4 of 10 IC policies referenced DSMB access to unmasked data. One
                   IC policy makes clear that members should “review masked or unmasked
                   data as needed and appropriate.” In another example, the policy is very
                   clear regarding members’ access to unmasked data and states that “the
                   DSMB decides in their first meeting if DSMB members will be unmasked.
                   If the DSMB decides to remain masked, they should consider assigning
                   one DSMB member to be unmasked to treatment assignment.” The
                   remaining six IC policies were silent on the issue of DSMB member
                   access to unmasked data.
                   A small number of DSMB members (17 of 180) did not believe they had
                   access to unmasked data. Additionally, DSMBs for 14 of 39 trials
                   reviewed only masked data at each meeting.28 We do not know whether
                   they requested unmasked data.

                   27
                      One expert argues that monitoring a trial without access to unmasked data “denies the
                   monitors the key information they need to perform in a competent fashion, and
                   incompetent monitoring poses a risk to research subjects.” (Curtis Meinert , “Masked
                   Monitoring In Clinical Trials: Blind Stupidity?” The New England Journal of Medicine.
                   338, 19. May 7, 1998.)
                   28
                      This analysis is based on the 39 trials for which we have meeting minutes.

Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                          10
                   ICs face challenges in recruiting and training DSMB members
                   The participation of experienced professionals is essential to ensure that
                   DSMBs are effective, and ICs must maintain a pool of qualified
                   individuals from which to recruit and train new members. According to
                   staff from all 10 ICs, however, recruiting is a challenge. Membership in a
                   DSMB is a voluntary commitment that lasts many years, with little
                   reimbursement. Some DSMB members noted the onerous nature of the
                   conflict-of-interest disclosures. For example, former collaborations with
                   the study sponsor can be considered a disqualifying conflict. Furthermore,
                   the ICs noted that bioethicists can be challenging to recruit, especially
                   because they lack clinical trial experience.
                   The ICs reported facing challenges in recruiting DSMB members despite
                   the prestige associated with serving on an NIH-sponsored trial DSMB.
                   The ICs touted the qualifications of their DSMB members as representing
                   the best of the best, and the DSMB members cited their DSMB service as
                   not only professionally satisfying but also as an important way to
                   contribute to scientific advancement.
                   ICs benefit from the depth of experience of their DSMB members.
                   However, sustaining that level of experience is a challenge for the ICs
                   because those with the most experience eventually retire. We found that 9
                   of 10 ICs do not offer any formal training to DSMB members and, in fact,
                   ICs and stakeholders noted that the best form of training is on-the-job
                   experience. ICs offer informal training such as online reading materials
                   and a review of the DSM plan during the first meeting. Many DSMB
                   members responding to our survey noted that formal training would have
                   benefitted them most only at the outset of their DSMB experiences to
                   create a common understanding of the role of a DSMB.




Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)             11
                   CONCLUSION AND RECOMMENDATIONS
                   DSMBs play a critical role in ensuring the safety of human subjects and the
                   merit of clinical trials. They fulfill their mission to monitor trials by making
                   use of the significant strengths of their members’ experience. However,
                   DSMBs face three issues that could compromise their effectiveness. The first
                   lies in ensuring their independence—and appearance of independence. The
                   second lies in ensuring their access to unmasked data. The third lies in
                   maintaining a pool of qualified individuals to serve on DSMBs. We
                   recommend that NIH:
                   Direct ICs To Articulate the Circumstances Under Which IC Staff
                   Participate in Closed Meetings
                   The extent of IC staff involvement in closed DSMB meetings and the lack of
                   clarity concerning the ICs’ expected roles in meetings could diminish the
                   appearance of independence. ICs should clearly describe the circumstances in
                   which it is appropriate for specified IC staff to attend closed DSMB meetings,
                   and the role of these staff during the meetings. For instance, IC policies could
                   outline that IC executive secretaries will attend closed meetings to take
                   minutes and provide appropriate followup. IC policies provide an appropriate
                   platform to set these expectations.
                   Direct ICs To Explicitly Reference DSMB Access to Unmasked
                   Data in Their DSMB Policies
                   DSMB members may not always have access to unmasked trial data. The
                   ability of DSMBs to monitor trial progress and ensure the safety of patients
                   may be compromised without access to unmasked data. ICs should ensure that
                   DSMB members have access by directing ICs to reference this access in their
                   DSMB policies.
                   Identify Ways To Recruit and Train New DSMB Members
                   According to staff from all 10 ICs, recruiting is a challenge. In addition, 9 of
                   10 ICs do not offer any formal training to DSMB members. Experienced
                   professionals are essential to ensure that DSMBs are effective.
                   To help recruit and train new DSMB members, NIH could create a forum for
                   DSMB issues to be shared and discussed across ICs. A forum in which IC staff
                   can discuss challenges and solutions—such as how to address recruitment
                   issues, including the underrepresentation of bioethicists—could be highly
                   beneficial for the effective use of DSMBs. An online forum is one option for
                   ICs to share information and network. NIH could also sponsor an in-person or
                   Webinar conference.


Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                12
                   In addition, NIH could create a pool of potential DSMB members by
                   expanding each DSMBs’ membership to include one nonvoting member who
                   has not previously (or recently) served on a DSMB.

                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   NIH concurred with all three of OIG’s recommendations. NIH stated that it is
                   organizing a trans-NIH working group to review the report and to ensure that
                   ICs’ DSMB policies and practices are optimal.
                   Although NIH agreed with our first recommendation, it did not find that the
                   presence of IC staff constituted a conflict of interest. However, we found that
                   the presence of IC staff at closed DSMB meetings did create the appearance of
                   a conflict of interest for at least some DSMB members, principal investigators,
                   and stakeholders. NIH did state that IC policies should make staff roles and
                   responsibilities transparent; clarify why their participation does not affect the
                   independence of DSMB-decision making; and delineate instances in which the
                   program staff take on additional roles that would constitute a conflict of
                   interest.
                   In response to our second recommendation, NIH specified that all IC policies
                   should state that DSMBs have access to unmasked data.
                   In response to our third recommendation, NIH stated that ICs are actively
                   exploring ways to enlarge their pools of experts and ensuring that DSMB
                   service is appropriately credited and recognized.




Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)               13
                   APPENDIX A
                   Agency Comments




Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)   14

                   APPENDIX A 

                   Agency Comments (cont.)





Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)   15

                   APPENDIX A 

                   Agency Comments (cont.)





Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)   16

                   ACKNOWLEDGMENTS
                   This report was prepared under the direction of Joyce Greenleaf, Regional Inspector
                   General for Evaluation and Inspections in the Boston regional office and Russell
                   Hereford, Deputy Regional Inspector General.
                   Anne Gavin served as the team leader for this study. Amy Glynn served as the lead
                   analyst. Other principal Office of Evaluation and Inspections staff from the Boston
                   regional office who contributed to the report include Shreya Patel; central office staff
                   who contributed include Debra Roush, Talisha Searcy, Jacquelyn Towns, and Sherri
                   Weinstein.




Data and Safety Monitoring Boards in NIH Clinical Trials (OEI-12-11-00070)                17
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
